   June 28, 2002




Defense Infrastructure

DoD Environmental Community
Involvement Programs at Test
and Training Ranges
(D-2002-122)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ACWA         Assembled Chemical Weapons Assessment
AFB          Air Force Base
BNL          Brookhaven National Laboratory
OSD          Office of the Secretary of Defense
PMCD         Program Manager for Chemical Demilitarization
POIO         Public Outreach and Information Office
         Office of the Inspector General of the Department of Defense
Report No. D-2002-122                                                     June 28, 2002
 (Project No. D2001CB-0186.000)

                DoD Environmental Community Involvement
                  Programs at Test and Training Ranges

                                  Executive Summary

Who Should Read This Report and Why? This report should be of interest to
operational personnel at DoD test and training ranges and to others concerned with the
sustainability of DoD test and training ranges. Incomplete community involvement
programs put test and training ranges at risk for training disruption.

Background. This evaluation was requested by the Office of the Deputy Under
Secretary of Defense (Readiness) and the Director of Operational Test and Evaluation
to evaluate the effectiveness of DoD environmental community outreach programs
relative to encroachment challenges at DoD test and training ranges. Members of
Congress have expressed concerns that encroachment issues, such as urban
development, civilian air traffic, and fierce competition for radio frequencies, are
among the factors that constrain full use of test and training ranges, negatively
impacting military preparedness and safety.

Based on recommendations from the Office of the Secretary of Defense and Service
headquarters, we visited four DoD test and training ranges.

Results. To enhance test and training range sustainability, DoD needs to improve
community involvement efforts at the ranges. Encroachment caused by external factors
is an increasing threat to the ability of test and training ranges to carry out live fire
testing and training operations. Community involvement in the decisionmaking process
at test and training ranges can help range officials make cost-effective decisions on
encroachment issues. However, community involvement efforts at the four DoD test
and training ranges visited lacked the necessary elements for a comprehensive program
or were disjointed. As a result, test and training ranges have an increased risk for
environmental civil liability, negative impacts on operations and military readiness, and
strained relations with local communities. To improve community involvement
programs and practices, DoD needed to publish guidance on community involvement
programs and establish an advocacy office for the community involvement function.
(See the Finding section of the report for the detailed recommendations.)

Test and training ranges have conducted some noteworthy community involvement
efforts. These efforts, which we have identified as best management practices, could
be adapted for use at any range in support of a community involvement program. See
Appendix D for details on best management practices.
Management Comments and Evaluation Response. The Deputy Under Secretary of
Defense (Readiness), Deputy Under Secretary of Defense (Installations and
Environment), and Director of Operational Test and Evaluation jointly concurred with
the finding and the intent of all the recommendations. They agreed to establish policy
and guidance for community involvement programs. They requested that we revise the
recommendation concerning establishing a community involvement function in the
Office of the Deputy Under Secretary of Defense (Readiness) until the overarching
integrated product team completes its work and decides on the responsibility and
location of the community involvement function. We revised the recommendation
accordingly. Because the comments did not provide specific corrective actions or
completion dates for the actions, we request additional comments on the final report by
August 27, 2002.




                                           ii
Table of Contents

Executive Summary                                                               i
Background                                                                      1

Objectives                                                                      3

Finding
     DoD Community Involvement Programs                                        4

Appendixes
     A. Scope and Methodology
          Scope                                                                14
          Methodology                                                          14
          Management Control Program Review                                    15
          Prior Coverage                                                       15
     B. Encroachment Issues                                                    16
     C. Best Management Programs                                               18
     D. Best Management Practices                                              24
     E. Report Distribution                                                    29

Management Comments
     Deputy Under Secretary of Defense (Readiness), Deputy Under
       Secretary of Defense (Installations and Environment), and Director of
       Operational Test and Evaluation                                         31
Background
    This evaluation was requested by the Office of the Deputy Under Secretary of
    Defense (Readiness) and the Director of Operational Test and Evaluation to
    evaluate the effectiveness of DoD environmental community outreach programs
    relative to encroachment challenges at DoD test and training ranges.
    Community Involvement. DoD uses the term “outreach” for dealing with
    military issues involving the public. Discussions with stakeholders revealed that
    the term “outreach” conveys one-way communication from the ranges to the
    community. However, stakeholders were more responsive to the term
    “community involvement,” which indicates open, ongoing, two-way
    communication between DoD and stakeholders. Community involvement
    incorporates an element of community outreach, which is the dissemination of
    information to educate and inform the public about various activities at the test
    and training range. For purposes of this report, the term “community outreach”
    was expanded to “community involvement.”

            Stakeholders. A stakeholder is anyone who is affected by, has an
    interest in, or has the ability to influence the outcome of encroachment issues.
    Stakeholders include individuals and groups in the surrounding communities,
    any current and future landowners, local or national activist groups, and
    regulatory agencies, as well as the media.

            Encroachment. The Deputy Under Secretary of Defense (Installations
    and Environment) stated that encroachment is any pressure, both internal and
    external to test and training ranges, that affects the ability to carry out live
    testing and training. Encroachment caused by external factors is an increasing
    threat to military readiness. DoD recognized that encroachment issues were
    important after local community concerns threatened to interrupt, interrupted,
    and/or terminated the testing and training activities at ranges on the island of
    Vieques in Puerto Rico, at Massachusetts Military Reservation, at Makua Valley
    Military Reservation in Hawaii, and at Farallon de Medinilla in the Pacific
    Ocean.

           One-Way Communication. The Federal Government has traditionally
    provided information to the public in a “decide, announce, defend” fashion.
    Stakeholder opinions may be solicited, but are often requested late in the
    decisionmaking process after agencies have concluded investigatory work. In
    addition, Federal agencies do not always include local government
    decisionmakers early enough to ensure that local officials can identify issues of
    concern.

    Range Sustainability. Military ranges are crucial tools in testing weapon
    systems and training personnel. Sustaining the ranges for future testing and
    training is essential to meet the fundamental responsibility of ensuring
    adequately tested equipment and adequately trained personnel. To accomplish
    range sustainability, DoD is developing plans and draft directives that will

                                         1
promote management and use of DoD ranges and airspace in a manner to
support national security objectives and maintain the high state of readiness
essential to the U.S. military. In addition, the newly developed policies will
ensure long-term viability of DoD ranges while at the same time protecting
human health and the environment.

Senior Readiness Oversight Council. The Senior Readiness Oversight Council
is made up of DoD senior leaders who meet monthly to review significant
readiness topics. In June 2000, the Senior Readiness Oversight Council
determined that DoD should have a comprehensive and coordinated approach to
address range sustainability issues. The Senior Readiness Oversight Council
tasked the Defense Test and Training Steering Group to analyze encroachment
issues and develop a comprehensive action plan to address them. The Defense
Test and Training Steering Group identified nine encroachment issues for range
sustainability. See Appendix B for a description of each issue:
   •   endangered species,

   •   unexploded ordnance and other constituents,

   •   frequency encroachment,

   •   maritime sustainability,

   •   national airspace system,

   •   air quality,

   •   airborne noise,

   •   urban growth, and

   •   outreach.

The Defense Test and Training Steering Group formed the joint Office of
Secretary of Defense and Services Sustainable Ranges Working Group to
address each issue. The Office of Secretary of Defense and Services Sustainable
Ranges Working Group worked with existing DoD boards and committees
populated by subject matter experts in the other eight issues. The outreach
subgroup developed a draft Sustainable Ranges Outreach Plan and is drafting a
DoD outreach directive.

Congressional Concerns. In letters to the Secretary of Defense dated March
and October 2001, members of Congress stated that urban development, civilian
air traffic, and fierce competition for radio frequencies are among the factors
that constrain full use of test and training ranges. Additionally, the members
stated that Service branches and training functions are not immune to
encroachment issues. Encroachment issues are of increasing concern and have a
negative impact on military preparedness and safety.



                                    2
     In a memorandum dated December 4, 2001, the Deputy Secretary of Defense
     directed the Under Secretary of Defense for Personnel and Readiness, the
     Deputy Under Secretary of Defense (Installations and Environment), the
     Director of Operational Test and Evaluation, and the Military Departments to
     form an integrated product team to serve as the Pentagon’s coordinating body
     for encroachment issues that relate to the sustainability of military test and
     training ranges. The integrated product team was established in December
     2001. Two levels of the integrated product team membership have been
     structured to respond to the December 4, 2001, Deputy Secretary of Defense
     direction. The overarching integrated product team, comprised of flag-level and
     Senior Executive Service members, reports to the Deputy Secretary. Supporting
     the overarching integrated product team is the working integrated product team
     whose membership includes mid-level Office of the Secretary of Defense and
     Service members. The overarching and the working integrated product teams
     meet on an as-required basis, approximately monthly. Additionally, a rapid
     response team that includes a number of overarching and working integrated
     product team members was formed to coordinate time-sensitive activities
     associated with the readiness and ranges preservation initiative.


Objectives
     Our objective was to evaluate the effectiveness of DoD environmental
     community outreach programs relative to encroachment challenges at DoD test
     and training ranges. Specifically, we assessed best management practices that
     encourage successful environmental community relationships as a tool for
     achieving sustainable test and training ranges. We also reviewed the
     management control program as it related to the overall objective. See
     Appendix A for a discussion of the evaluation scope and methodology, prior
     coverage, and the review of the management control program.




                                        3
            DoD Community Involvement Programs
            Community involvement efforts at DoD test and training ranges visited
            lacked the necessary elements for a comprehensive program or were
            disjointed. DoD has recognized outreach and encroachment as critical
            issues of range sustainability and has developed draft policy and
            guidance. Although the proposed policy and guidance may lead to
            improvements, they are incomplete because they do not contain the
            essential elements for a comprehensive community involvement
            program. In addition, DoD has not established a functional proponent
            for community involvement. As a result, test and training ranges have
            an increased risk for environmental civil liability, negative impacts on
            operations and military readiness, and strained relations with local
            communities.

Cultural Shift
     Over the last 60 years, drastic cultural, societal, and informational changes have
     occurred that have had a profound impact on communication strategies between
     Federal agencies and the public. In the 1940s and 1950s, the public’s
     perception of the military was one of credibility and trustworthiness.
     Information was provided by the military to the public with one-way
     communication. At that time, experts who interpreted technical information
     worked for the Federal Government. Between the 1960s and the 1980s, the
     public became more skeptical of military decisions. New laws were created to
     require procedural public involvement for specific environmental issues.
     Representatives of the Federal Government met with the public to provide
     information in a “decide, announce, defend” manner. However, with a
     proliferation of access to information, Americans increasingly demand open,
     transparent, and inclusive processes for determining what is important for them.
     The Federal Government can no longer provide the public with information in a
     “decide, announce, defend” manner. Community actions from around the
     nation have demonstrated that involving communities early and often in the
     decisionmaking process enables public stakeholders to help agencies make
     cost-effective decisions.

Elements for Community Involvement Programs
     DoD is beginning to recognize the need for involving stakeholders in dealing
     with encroachment issues, and is currently seeking ways to improve those
     relationships. We visited four sites within DoD and two sites outside of DoD to
     evaluate community involvement programs. Of the sites evaluated, best
     management programs were observed at Eglin Air Force Base, Brookhaven
     National Laboratory, the American Chemistry Council, and Program Manager
     for Chemical Demilitarization. See Appendix C for a detailed discussion of
     each program.




                                         4
Analyses of best management programs highlighted the elements necessary for a
comprehensive community involvement program.

       Stakeholder Involvement. Active engagement of all stakeholders in the
decisionmaking process is critical because it allows for stakeholder support of
the missions of test and training ranges.

       Senior Management Commitment. A sustained and visible senior-level
management commitment to community involvement is necessary to build and
maintain partnerships with the affected communities.

        Single Point of Contact. Ranges and installations should clarify
functional responsibilities for disseminating information on range issues to the
local community, internal audiences, and media outlets on environmental,
training, testing, and natural resource matters, issues, concerns, and successes.
A point of contact should support all the facets of a range’s community
involvement program and should act as the range spokesperson on all
environmental, testing, and training issues. In addition, when appropriate, this
point of contact should communicate and coordinate with the installation
community involvement/public affairs office.

        Site-Specific Implementation Plans. Site-specific implementation plans
serve as the blueprint for public involvement activities. Using general guidance,
test and training ranges should tailor the plan to the specific needs of the various
stakeholders.

        Resources. Community involvement is a vital part of the mission for
test and training ranges, and requires a sustained commitment of funding and
staffing, even during times of budget constraints.

        Accountability. Accountability includes clearly defined roles and
responsibilities within job descriptions and in the annual performance appraisals
for employees at all levels, including range commanders and where appropriate
the installation commander.

        Training. Range personnel should be prepared to deal with the public
by understanding the specific community at hand and completing communication
training. Because the technical issues vary dramatically among ranges, range
personnel should provide training for stakeholders. Training programs should
orient stakeholders to missions and include an overview of policies and
practices, along with the range budget and procurement processes. Training
programs should also highlight transient issues, such as changes in range
commanders and how often the changes occur.

        Performance Metrics. Defining measurable objectives and tracking a
range’s progress toward meeting these objectives are important steps in a
strategy for meeting the mission. DoD must develop and use qualitative and
quantitative measures of effectiveness to assess the program’s impacts. These
measures can include feedback from dialogue forums, public opinion surveys,
meetings with identified stakeholders, or tabulating the number of formal
complaints filed against DoD.

                                     5
Test and Training Range Efforts
    Test and training ranges have identified the importance of effective stakeholder
    relationships, and have begun to implement various levels of community
    involvement. However, community involvement efforts at the four DoD test
    and training ranges visited lacked the necessary elements for a comprehensive
    program or were disjointed. DoD has not identified the number of test and
    training ranges. The following results are based upon four site visits to test and
    training ranges that were recommended by the Office of the Secretary of
    Defense (OSD) and Service officials as having comprehensive community
    involvement programs.

    Lack of Necessary Elements. The four DoD test and training ranges visited
    did not implement all of the elements necessary for a comprehensive community
    involvement program. Analyses of community involvement programs at the test
    and training ranges visited revealed that five of the eight elements were
    frequently lacking in their community involvement programs. Two sites lacked
    the elements of senior management commitment to community involvement,
    dedicated resources, and training for range officials dealing with community and
    encroachment issues. In addition, three sites lacked the elements of either
    accountability or performance metrics, or both, for community involvement
    programs.

    Although the ranges implemented some community involvement efforts, most of
    the efforts did not go beyond restoration. Community involvement efforts at
    two sites were focused on cleanup activities rather than working with
    communities to establish partnerships and proactively address encroachment
    issues. As a result, community involvement efforts at DoD test and training
    ranges were incomplete.

    Disjointed Efforts. Community involvement efforts conducted on one DoD test
    and training range were disjointed, resulting in uncoordinated efforts between
    ranges and tenant organizations. The range had outreach efforts in place,
    including a restoration advisory board that involved community members, public
    tours of facilities, and a Sound Level Management Program to manage noise
    levels projected into the community. However, there was no central point of
    contact to coordinate the community involvement efforts. Additionally,
    communication between the tenant and range public affairs offices was minimal.
    As a result, stakeholders did not have a single point of contact to discuss issues
    or obtain information.




                                         6
    Best Practices. Test and training ranges have conducted some noteworthy
    community involvement efforts in addition to those focused on restoration.
    These efforts, which we have identified as best management practices, could be
    adapted for use at any range in support of a community involvement program.
    The best practices include:

       •   establishment of an Encroachment Committee,

       •   establishment of a Citizens Advisory Technical Team,

       •   implementation of a Sound Level Management Program, and

       •   development of an installation leader’s guide for public participation.

    See Appendix D for details on best management practices.

Policy and Guidance
    DoD test and training ranges were not provided adequate guidance to develop
    comprehensive community involvement programs. No DoD policies or
    environmental laws discuss the essential elements of a comprehensive
    community involvement program.

    Existing Policy. DoD and Service policies do not incorporate all of the
    elements necessary for a comprehensive community involvement program. The
    most comprehensive DoD policy that currently exists is DoD Directive 5410.18,
    “Public Affairs Community Relations Policy,” November 20, 2001; however,
    DoD Directive 5410.18 focuses on establishing authority and assigning
    responsibilities for public affairs offices. These responsibilities are concentrated
    on promotional events that provide one-way communication and do not address
    community involvement elements.

    Environmental Laws Requiring Community Involvement. Environmental
    laws exist that require community involvement to varying degrees. Many of the
    existing laws and acts require public feedback or comments regarding
    environmental issues. Although these laws involve the public with
    environmental actions, the laws do not address a comprehensive community
    involvement program.

    Draft Directive. The outreach working group, formed by the Defense Test and
    Training Steering Group, has been developing an outreach directive,
    “Coordination and Outreach for Sustainable Ranges and Operating Areas,”
    since September 2001. The purpose of the directive is to establish policy and
    assign responsibilities for implementing community involvement. The directive
    will support sustainable management of ranges and operating areas within DoD.
    The directive will require national, regional, and local coordination for
    community involvement programs to promote sustainable range management
    and encroachment issue resolution. The directive will also require community
    involvement programs to include strategy, implementation mechanisms, and
    performance metrics.

                                         7
Draft Sustainable Ranges Outreach Plan. DoD hired SRS Technologies, a
contractor, in August 2000 to begin drafting the Sustainable Ranges Outreach
Plan to gain support for military testing and training. The purpose of the
Sustainable Ranges Outreach Plan is to build trust and confidence among DoD,
regulators, and key stakeholders on issues that relate to sustainable range
operations. The primary themes of the plan include maintaining two-way
communication with the public and coordinating community involvement efforts
among government bodies. The goals of the plan are to:

   •   build and maintain effective working relationships with key internal and
       external stakeholders to increase public support for sustaining test and
       training ranges;

   •   ensure the public understands the need for DoD to test and train, and the
       critical connection between readiness and range access;

   •   increase DoD understanding of the types of impact on communities from
       DoD testing and training actions; and

   •   build confidence that DoD is equipped, trained, and ready to respond to
       activity around the globe, while at the same time conveying that the
       response capability is perishable and must be reinforced with testing and
       training.

Analysis of Draft Policy and Guidance. Although the draft directive and plan
may lead to improvements, the policy and guidance are incomplete because they
do not contain the essential elements for a comprehensive community
involvement program. The policy being drafted by the outreach working group
incorporates all the elements for national level programs; however, the policy
does not adequately address local level community involvement. The policy
does not incorporate:

   •   senior management commitment by holding the range commander
       accountable for community involvement;

   •   a single point of contact at ranges to coordinate community involvement
       programs;

   •   resources for planning, programming, and budgeting at all levels to
       support a comprehensive community involvement program;

   •   accountability by establishing roles and responsibilities to hold range
       personnel responsible for community involvement; and

   •   training programs for range personnel who are required to conduct
       two-way community involvement.

The discussion of elements within the policy should be broad enough to allow
test and training ranges to tailor community involvement programs to meet
individual needs.



                                    8
    The draft Sustainable Range Outreach Plan is very broad in scope and discusses
    responsibilities for OSD, regional, and local level community outreach.
    However, the plan does not discuss site-specific implementation plans,
    performance metrics, or a single point of contact, which are necessary for a
    comprehensive community involvement program.

    Discussions with stakeholders have indicated that there are different
    understandings of the terms “outreach” and “encroachment.” DoD draft policy
    should replace the term “outreach” with “community involvement” and provide
    definitions for the terms “community involvement” and “encroachment.” The
    definition of “encroachment” should include encroachment on the range by the
    public and encroachment on the public by the range. Providing definitions
    would encourage a mutual understanding of encroachment issues.

OSD-Level Functional Proponent
    DoD has not established a community involvement function at the OSD level for
    test and training ranges. Encroachment challenges for DoD ranges point to the
    need for developing and maintaining dedicated community involvement. A
    community involvement function would provide leadership for implementing
    community involvement programs at test and training ranges to proactively
    address encroachment issues. A community involvement function would:

       •   coordinate stakeholder involvement programs by drawing on the
           expertise from operations, engineering, legal, acquisition, and public
           affairs communities;

       •   coordinate with Services and other Federal, state, tribal, and local
           agencies on encroachment issues;

       •   provide consultation and training across DoD to identify and address
           potential and actual encroachment issues; and

       •   provide expert advice to policy development in these areas.

    An OSD-level community involvement function to support range issues would
    provide consistent implementation and coordination of stakeholder involvement
    across the Services. Facilitating partnerships with stakeholders would greatly
    improve the relationship and credibility of DoD with Congress, other Federal
    agencies, regulators, and the public.

Mission Risks
    As a result of DoD not establishing and implementing a comprehensive policy
    and guidance for community involvement, DoD test and training ranges are at
    an increased risk for environmental civil liability, negative impacts on
    operations and military readiness, and strained relations with local communities.
    For example, several news articles have reported that events centered on


                                        9
stakeholder concerns at Farallon de Medinilla, Makua Valley Military
Reservation, the island of Vieques, and Massachusetts Military Reservation
have threatened to limit, limited, or terminated tests and training at those
ranges.

Environmental Civil Liability. An ongoing environmental lawsuit is
threatening to suspend military training on the Pacific Island of Farallon de
Medinilla. Environmentalists are seeking an injunction to stop military live-fire
training on the island until valid permits are obtained by the military. The
group contends that the military is violating the Migratory Bird Treaty Act by
using the island for training and bomb drops, which they say kill or harm
nesting migratory birds. Military officials state that Farallon de Medinilla is
crucial to military training because the only other similar training ranges that
exist in the Pacific Ocean are under the control of foreign governments.

Additionally, a lawsuit between a Hawaiian environmental group, Malama
Makua, and the Army halted training at Makua Valley Military Reservation
between 1998 and 2001. The lawsuit was based on the arguments by Malama
Makua that live-fire military training had adverse risks on native Hawaiian
cultural resources. A settlement was agreed upon in October 2001 that required
the Army to conduct a comprehensive environmental impact statement exploring
the risks to cultural and environmental resources on the reservation. The Army
agreed to limit testing to no more than 37 live-fire exercises within the next
3 years. After the third year, no training will be permitted at Makua Valley
Military Reservation until the environmental impact statement is complete.

The Army has used Makua Valley Military Reservation for training since the
1920s. Until training was halted in 1998, the Army’s 25th Infantry Division
trained companies of 150 troops. Since then, the number of training exercises
has declined 75 percent, forcing troops to travel as far as Thailand and Fort
Polk, Louisiana, to train.

Negative Impacts on Operations. Although DoD has downsized over the past
decade, requirements for test and training ranges have not decreased in
proportion to overall force reductions. Current weapons systems have
significantly greater capabilities and operating ranges than DoD legacy weapons
systems. For example, modern air combat capabilities and tactics require up to
three times the training area than was required 20 years ago. Increasing
capabilities and greater dependence on use of electronic combat and
communications systems drive the need for more range space, and realistic
testing and training with modern weapons require larger safety buffer areas
around ranges. However, the limits on tests and training because of
encroachment issues threaten the long-term sustainable use of DoD test and
training ranges.

The Navy trained on the Puerto Rican island of Culebra, where there was heavy
protesting against the training. In the early 1970s, the Navy shifted the training
performed on Culebra to the island of Vieques. After protests by local
communities, the Navy agreed to reduce environmental destruction on Vieques
and signed a memorandum of understanding in 1983. The Navy did not follow
the intent of the memorandum and increased training during the 1990s. The
Navy did not involve the local communities in the decisionmaking process to

                                    10
    increase training. Residents of Puerto Rico and Vieques protested the training.
    As a result, the FY 2002 Defense Authorization Act states that the Navy plans
    to discontinue using Vieques no later than May 1, 2003, or until a suitable
    alternative can be identified. According to a study by the Center for Naval
    Analyses, there is no single site available to the Navy that can accommodate all
    aspects of weapons training and military exercises that are required of carrier
    battle groups before overseas deployment.

    Strained Community Relations. Stakeholders perceive that government
    officials treat their requests for information as burdensome and a mission
    impediment rather than as a right of citizenship. This was evident at
    Massachusetts Military Reservation, where military officials did not address
    public concerns, resulting in the lack of a trusting relationship between the
    installation and the public. The lack of community involvement resulted in
    distrust and lack of confidence in the military operations at Massachusetts
    Military Reservation. Massachusetts Military Reservation has since initiated a
    community involvement program in an attempt to rebuild the lost public trust
    and confidence.

    At-Risk Methodology. DoD has not identified test and training ranges that
    are at risk for encroachment issues. We believe that DoD needs to identify
    ranges at risk in order to effectively address encroachment impacts on their
    mission. The U.S. Army Construction Engineering Research Laboratory
    has initiated the development of a model to identify urban growth
    encroachment issues at Army installations; however, we believe that other
    models need to be developed to encompass all issues that put DoD test and
    training ranges at risk for encroachment.

Conclusion
    Today’s military must build effective relationships with stakeholders inside and
    outside range boundaries, while shifting historic mindsets to be flexible, open,
    and inclusive of political, social, and economic values that are important to
    stakeholders. DoD uses the word “outreach” when dealing with local
    communities and writing draft policy; however, local communities and
    stakeholders consider outreach as one-directional communication. Using the
    term “community involvement” would convey to the public a positive
    willingness by DoD to have two-way communication. Community involvement
    programs at DoD test and training ranges lacked the elements for a
    comprehensive community involvement program or were disjointed. Incomplete
    community involvement programs put DoD ranges at risk for training
    disruption. Comprehensive community involvement programs should include
    the essential elements, but be tailored for the local level. DoD has also not
    established a community involvement function to proactively address
    encroachment issues and oversee implementation of community involvement
    programs at test and training ranges.




                                       11
Recommendations, Management Comments, and Evaluation
  Response
    Revised Recommendations. As a result of management comments, we revised
    Recommendation 3. to allow the overarching integrated product team to evaluate
    this issue and provide a recommendation regarding the full responsibilities and
    location of a community involvement function.

    We recommend that the Under Secretary of Defense for Personnel and
    Readiness, the Deputy Under Secretary of Defense (Installations and
    Environment), and the Director of Operational Test and Evaluation jointly
    develop and implement a structured approach to proactively address
    encroachment issues at test and training ranges that includes:

           1. Publication of comprehensive policy and guidance for the
    development and implementation of community involvement programs at
    test and training ranges. Policy and guidance should reflect senior
    management commitment to and accountability for community
    involvement, and require:

                 a. Incorporation of stakeholder input into community
    involvement programs.

                b. Designation of a single point of contact for range and
    encroachment issues in the community.

                   c. Implementation of site-specific plans that detail roles and
    responsibilities in carrying out community involvement, outline community
    involvement activities, and address encroachment issues.

                  d. Planning, programming, and budgeting of resources at all
    levels to support comprehensive community involvement programs.

                 e. Development of training programs for range personnel
    and stakeholders to orient them to specific community involvement issues
    and range missions, respectively.

                 f. Establishment of performance metrics for community
    involvement objectives and development of a program to measure progress.

             2. The concept of community involvement and definition of the
    terms:

                 a. “Community involvement” to encompass information
    dissemination to educate and inform stakeholders and encourage open,
    ongoing, two-way communication with stakeholders.

                  b. “Encroachment” to reflect both internal and external
    factors that may impair the military mission.


                                      12
       3. Establishment of a community involvement function to advocate and
coordinate DoD community involvement issues.

      Management Comments. In a combined response of the Deputy Under
      Secretary of Defense (Readiness), the Deputy Under Secretary of Defense
      (Installations and Environment), and the Director of Operational Test and
      Evaluation concurred with the recommendations. They stated that
      Recommendation 3. was too specific and premature. They believe the
      overarching integrated product team should evaluate the issue and provide a
      recommendation regarding the full responsibilities and location of a community
      involvement function in the Office of the Deputy Secretary of Defense.

      Evaluation Response. Although they jointly concurred with the
      recommendations, they did not provide corrective actions or completion dates
      for corrective actions. Therefore, we request they provide additional comments
      in response to the final report.




                                        13
Appendix A. Scope and Methodology

Scope
    Work Performed. We reviewed community involvement policy at the
    OSD-level, Service Headquarters, and four test and training ranges. We studied
    and analyzed DoD, Service, and installation level policies and procedures and
    national environmental laws and acts related to community involvement. We
    also relied on published research, literature, and Congressional transcripts. The
    documents we reviewed were dated from July 1974 through February 2002.

    We evaluated the effectiveness of community involvement programs relative to
    encroachment challenges at DoD test and training ranges. During site visits
    within DoD, other Federal agencies, and private industry, we identified best
    management programs from which we developed the eight elements for a
    comprehensive community involvement program. We used the eight elements
    to determine the effectiveness of community involvement programs at Naval Air
    Warfare Center, Aircraft Division, Patuxent River; Aberdeen Proving Ground;
    Marine Corps Base, Quantico; and Eglin Air Force Base. We also identified
    best management practices that encourage successful community relationships.
    We visited the Department of Energy’s Brookhaven National Laboratory (BNL)
    and the American Chemistry Council for research and review of comprehensive
    community involvement programs outside of DoD. We did not evaluate test and
    training ranges outside of the continental United States.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure Management high-risk area.

Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this evaluation.

    Universe and Sample. DoD has not identified the total number of test and
    training ranges. Based on recommendations from OSD and Service
    headquarters, we selected and visited four DoD test and training ranges.

    Evaluation Dates and Standards. We performed this evaluation from August
    2001 through April 2002 in accordance with standards as implemented by the
    Inspector General of the Department of Defense. Accordingly, we included
    tests of management controls as necessary.




                                       14
    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DoD and at the Department of Energy, the American
    Chemistry Council, the Center for Public Environmental Oversight, and the
    Keystone Center. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the management control programs for the implementation and
    coordination of community involvement programs at DoD test and training
    ranges. We also reviewed management’s self-evaluation applicable to those
    controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the DoD test and training ranges as defined by DoD
    Instruction 5010.40. DoD test and training range management controls over
    community involvement implementation and coordination were not sufficient to
    ensure that the range was not at risk for environmental civil liability, negative
    impacts on operations and military readiness, and strained community relations.
    If management implements all recommendations, the implementation and
    coordination of community involvement programs at DoD test and training
    ranges will improve. A copy of the report will be provided to the senior official
    responsible for management controls in the Office of the Under Secretary of
    Defense for Personnel and Readiness.

    Adequacy of Management’s Self-Evaluation. DoD test and training officials
    did not identify the implementation and coordination of community involvement
    programs as an assessable unit and, therefore, did not identify or report the
    material management control weaknesses identified by the evaluation.

Prior Coverage
    Unrestricted General Accounting Office reports can be accessed on the Internet
    at http://www.gao.gov.

    General Accounting Office
    GAO Report No. GAO-02-614, “Military Training: DoD Lacks a
    Comprehensive Plan to Manage Encroachment on Training Ranges,” June 11,
    2002.



                                       15
Appendix B. Encroachment Issues
   Endangered Species. Military lands provide habitat for over 300 Federally
   listed threatened or endangered species that must be protected under the
   Endangered Species Act. Protection of endangered species by increased land
   use restrictions reduces DoD flexibility to use designated ranges for testing and
   training.

   Unexploded Ordnance and Other Constituents. Live-fire test and training is
   the cornerstone for readiness. The application of environmental statutes to
   unexploded ordnance and munitions on active ranges could cause the disruption
   or termination of live-fire training in order to conduct cleanup investigations and
   restoration.

   Frequency Encroachment. Weapon system testing relies heavily on the use of
   radio spectrum. The growth of consumer communications devices has resulted
   in pressure from the telecommunications industry for the reallocation of radio
   spectrum from Government to non-Government. Some of the reallocations have
   resulted in operating restrictions at specific range locations, while other
   reallocations have resulted in the complete loss of access to specific frequency
   bands by the DoD.

   Maritime Sustainability. Regulatory compliance is a common issue affecting
   the ability of U.S. Armed Forces to conduct operations, training exercises, or
   testing in the marine environment. Regulatory agencies apply a “precautionary
   approach” to the management of protected resources when DoD activities are
   involved. This approach requires a regulator to assume that the proposed DoD
   activity will harm the environment. DoD must prove that an action has no
   potential harm to the environment. This practice results in unsupportable and
   unnecessary restrictions on mission-essential training.

   National Airspace System. As a result of deregulation and relatively
   affordable fares, the civilian airline industry has grown steadily. This factor,
   along with the population growth in areas that were once desolate, has caused
   airspace encroachment on military ranges. DoD airspace is necessary to
   conduct critical testing of equipment and training of aircrews.

   Air Quality. The Clean Air Act includes two elements that cause serious
   encroachment problems: opacity and conformity. Opacity measures the
   visibility of air emissions, and opacity limits can restrict or prohibit smoke
   training and the use of intentional burns. Conformity requires DoD to analyze
   emissions for any new or significant change in range operations. If an increase
   in emissions cannot be offset or accommodated, the Clean Air Act prohibits the
   new or changed activity.




                                       16
Airborne Noise. Airborne noise is noise from military weapon systems that
travel through the air, not under water. The central issue of airborne noise is
the impact, or perceived impact, on people, animals, structures, and land use.
Compliance with noise-related laws and Congressional, regional, state, and
community pressures often result in restrictions and/or reductions to military
training.

Urban Growth. The DoD maintains over 38,000 square miles of training,
testing, and facility lands. The continued availability of these resources is
critical for the maintenance of force readiness and power projection capability.
As communities grow closer to the boundaries of ranges and installations, land
use incompatibilities emerge. These incompatibilities can compromise the
health, safety, and welfare of both military and civilians, and often cause the
loss of military operational efficiency, operational capacity, and future mission
capability.




                                    17
Appendix C. Best Management Programs

Eglin Air Force Base, Florida
     Senior Management Commitment. The Commander, Air Armament Center at
     Eglin Air Force Base (AFB) published an environmental policy that includes
     dedication to community involvement. The Center Commander participates in
     annual meetings to discuss issues and gain feedback from both local and state
     political figures. For example, the Governor’s Senior Leadership Forum brings
     together military commanders from throughout the state of Florida semi-
     annually with the Governor of Florida to discuss concerns of a nature where the
     state might provide assistance. This personal interface has opened up the lines
     of communication with the Governor, his staff, and all state agencies. The
     Center Commander, along with senior management, also meets quarterly with
     mayors of local communities for a Mayors’ Breakfast. This evidence of senior
     management commitment has been instrumental in helping to develop
     community tactical and strategic plans.

     Partnerships. Eglin AFB has developed partnerships that allow officials to
     contribute to key planning organizations within the state of Florida while
     maximizing opportunities for mutual growth. Eglin AFB provides substantial
     assistance to community planners in order to proactively help shape future land
     development and associated transportation, water, and utility improvements.
     Partnerships with local communities have also enabled Eglin AFB to obtain over
     4,000 hours of volunteer assistance annually for environmental programs.

     Performance Metrics. Eglin AFB established the Executive Management
     Information System, which is a base-wide planning mechanism for tracking
     performance measures. This system is available to managers to track progress
     of all activity conducted on Eglin AFB, including outdoor recreation and
     prescribed burning. Eglin AFB is currently developing performance metrics for
     community involvement.

     Environmental Public Affairs Officer. Eglin AFB established an
     Environmental Management Directorate within the Air Armament Center,
     which was tasked with environmental stewardship and compliance. Within this
     directorate, an Environmental Public Affairs Office was established to manage
     environmental public affairs activities for Eglin AFB. The Environmental
     Public Affairs Officer, who reports to the Director of the Environmental
     Management Directorate, plans and directs all aspects of environmental public
     affairs related to Eglin AFB, and oversees environmental public affairs plans
     and policies for the Air Armament Center. The Environmental Public Affairs
     Officer, along with the base public affairs office, are required to complete risk
     communication training in order to effectively deal with the public. The Eglin
     AFB environmental program office stated that Eglin AFB has included the
     Environmental Public Affairs Office in the annual budget, allotting resources
     specifically for environmental community involvement issues.



                                         18
    Resources. According to the Eglin AFB environmental program office, the
    Environmental Management Directorate budgets approximately $70,000
    annually for community involvement programs. These programs encompass
    everything from educational efforts and public meetings to compliance with
    environmental legal requirements. The Environmental Public Affairs Officer
    oversees one part-time contractor, who is active in community involvement
    activities such as writing articles and providing tours to local media.

Brookhaven National Laboratory
    BNL is a Government-owned, contractor-operated Department of Energy
    facility located in Long Island, New York. The Department of Energy has
    established a community involvement policy, which is the basis for the
    community involvement program at BNL. The Director, BNL has documented
    his commitment to community involvement, and has illustrated this commitment
    by interacting with the community and overseeing the implementation of
    community involvement at BNL.

    Employee Responsibility. The responsibility for community involvement at
    BNL lies with BNL managers and is included in their performance requirements
    and ratings. Additionally, BNL requires all managers that interact with the
    public on behalf of the Laboratory to be appropriately trained by community
    involvement managers.

    Community Relations Office. BNL has established a Community, Education,
    Government, and Public Affairs Office. The Community Relations Office
    within this directorate is responsible for community involvement and outreach
    activities that include:

        •   managing programs that build relationships and disseminate information
            about the BNL science mission with key stakeholders;

        •   maintaining a required training program for all BNL managers in
            approaches to community involvement and laboratory decisionmaking;

        •   maintaining an issue/interest anticipation process to forecast
            developments within the community that could have an impact for BNL;
            and

        •   managing a community involvement process that ensures line manager
            responsibility for community involvement activities.

    Community Advisory Council. BNL has established a Community Advisory
    Council, which involves stakeholders in the decisionmaking process at BNL.
    The Community Advisory Council meets monthly to discuss initiatives at BNL
    and provide advice to the Director of BNL. By establishing the Community
    Advisory Council and allowing community members to set the agenda for the




                                      19
    meetings, BNL management has displayed the commitment to community
    involvement necessary for a successful program. BNL has implemented ideas
    presented by the community members. When ideas are not implemented, BNL
    has provided feedback to the community as to why the ideas were not
    implemented.

    Management Controls. BNL requires program managers to complete quarterly
    self-assessments of programs in order to enhance existing programs. The
    Manager of Community Relations compiles the quarterly reports into an annual
    summary, which is given to BNL senior management and the Department of
    Energy. An outside party annually conducts a peer review to evaluate the
    overall program at BNL. This review is based solely on performance metrics
    and includes the self-assessments conducted throughout the year.

    Benefits of Community Involvement. Personnel at BNL stated that good
    community relations build public confidence and trust in operations. The
    Community Relations Manager stated that the community involvement
    program helps BNL invest a minimum amount of time and resources
    defending itself against environmental groups and elected officials. Rather
    than facing the strong possibility of continued funding loss from community
    complaints, BNL has used communications, community involvement, and
    relationship-building as tools to build trust with different public groups and
    communicate its mission in a more precise and strategic way.

    Resources. BNL personnel stated that the Community Relations Office has
    adequate resources to meet requirements. When faced with budget constraints,
    the Community Relations Office has given the stakeholders and community
    members an opportunity to give input into which community involvement
    activities should be conducted.

    Department of Energy. The Department of Energy established a foundation
    for community involvement programs at the local level with the implementation
    of the public participation policy. The Department of Energy also formed a
    Public and Consumer Affairs Office within the headquarters office that was
    eliminated during the first year of its existence due to a restructuring of the
    Department of Energy headquarters. The former director of the Office stated
    that an office at the Secretariat level enforced consistent implementation of
    community involvement. The office should act as a coordinating body for
    lessons learned and information sharing, but should not have direct authority
    over local sites. In addition, the former director recommended that a high-level
    career person direct the office in order to achieve stability in the implementation
    of policies and procedures.

American Chemistry Council
    The American Chemistry Council (the Council) represents the 190 companies
    engaged in the chemical industry. Its bylaws obligate member companies to
    ascribe to guiding principles, and to make good faith efforts to implement the
    program elements of the Responsible Care® program. The Council and its
    member companies are committed to an improved environmental, health, and
    safety performance through common sense advocacy designed to address major

                                        20
public policy issues, health and environmental research, product testing, and the
Responsible Care® program. The Responsible Care® program instituted
guidance for ethical ways the chemistry industry can benefit society, the
environment, and the economy, and promotes an open, ongoing dialogue with
employees and the community.

Principles. Responsible Care® is built on six codes of management practices
that help companies continually improve their performance in health, safety, and
the environment. Each member company must adhere to the six Codes of
Management Practices.

    •   Community Awareness and Emergency Response

    •   Pollution Prevention
    •   Process Safety

    •   Distribution

    •   Employee Health and Safety

    •   Product Stewardship

The community awareness and emergency response code requires a community
involvement component that will communicate program activities and
performance under all the codes of management practices and will promote an
open, ongoing dialogue with employees and the community.

Performance Evaluation. Member companies submit annual reports on their
progress in implementing each code. In addition, each member company must
establish company-specific goals to be publicly reported each year in order to
measure individual progress. These self-evaluations provide a measure of
company progress and are a valuable management tool for the Council and
individual companies in directing assistance efforts. This process also provides
a mechanism for the Council to monitor the general implementation progress of
members.

Verification Process. The management systems verification process assists
Council members in the implementation of the Responsible Care® program.
The process provides participating companies with an external view of the
effectiveness of their management systems for carrying out Responsible Care®,
and helps demonstrate the companies’ commitment to implementation of
Responsible Care® to both internal and external stakeholders. Teams consisting
of industry peers, a facilitator, and members of the public interview company
officials, conduct facility tours, review company information, and interview
commercial and other stakeholders to gather information about the company.
The teams meet and interview senior staff and determine if systems are in place
to drive continuous performance improvement and sustain Responsible Care®
excellence. At the conclusion of the process, the team prepares a report
identifying the company’s strengths and opportunities for improvement.


                                   21
    Training. Initially, member companies felt uncomfortable communicating with
    the public and chief executive officers were reluctant to implement Responsible
    Care® at their plant sites. However, through training of plant managers and
    upper management, employees became skilled in talking and listening to the
    community, and senior management provided the leadership to ensure the
    culture change occurred at the respective sites.

    Resources. The Council has a strategic communications department for
    Responsible Care®. The department head, who is supported by one other
    administrative employee, is primarily responsible for management of the overall
    communication needs associated with Responsible Care®. These tasks include
    oversight of communication efforts with stakeholders, implementation of
    Responsible Care® communications strategies, and development of metrics and
    other management processes to measure quantitative and qualitative results of
    the communications program.

Program Manager for Chemical Demilitarization
    The Program Manager for Chemical Demilitarization (PMCD) is a national
    program with headquarters located on Aberdeen Proving Ground, Aberdeen,
    Maryland. The mission of PMCD is to destroy U.S. chemical warfare-related
    material while ensuring maximum protection to the public, personnel involved
    in the destruction effort, and the environment. PMCD supports meaningful
    public involvement by providing both information and outreach activities as well
    as opportunities for the interested public to participate in the decisionmaking
    process.

    Guidance for Implementation. The PMCD community involvement program
    provides the guidance for implementing, initiating, conducting, and overseeing
    the outreach program for PMCD. The guidance provided by PMCD
    headquarters is general, requiring each site to develop site-specific plans and
    implement the information and involvement activities defined in those plans.

    Public Outreach and Information Office. PMCD has established a Public
    Outreach and Information Office (POIO) to ensure a public involvement
    program that supports meaningful public participation and dialogue. The vision
    of the POIO states that, with management support, the POIO will gain public
    acceptance of the need for safe and expedious disposal of chemical warfare
    material. In addition, the POIO established site outreach teams at each stockpile
    site.

    POIO Strategy. The POIO public outreach and involvement efforts are based
    on a three-tiered strategy developed to provide guidance to the community
    involvement program. The first tier of the strategy is the PMCD overarching
    public involvement strategy, which outlines the mission and vision for public
    outreach for the program as a whole and ensures consistency throughout the
    program. The second tier is comprised of mission area strategies, which
    incorporate the mission and vision of the national program, but provide a more
    tailored approach for the particular mission area to ensure that outreach and



                                       22
involvement efforts meet the needs of the mission area stakeholders. The final
tier consists of site implementation plans for each of the eight stockpile sites
across the United States. The development of public involvement strategies and
plans has been a collaborative effort by POIO, the site outreach teams, and
PMCD.

Performance Metrics. PMCD measures accomplishments of objectives
through a variety of surveys and processes. These include longitudinal, cross-
sectional, and public opinion surveys, and site data collection, issues
management, and evaluation processes. PMCD has also established a lessons-
learned program for the regular exchange of information between each outreach
site office and PMCD headquarters. PMCD also implemented a community
outreach activity tracking system used by site and headquarters outreach teams
to track public outreach and involvement activities as well as public comments
and questions. This information helps the POIO and the site teams to monitor
and evaluate their outreach and involvement efforts.

Resources. When PMCD began public activities in FY 1994, the budget for
public affairs activities was $600,000. There were three public affairs
employees and there were no outreach offices. As of FY 1999, POIO had a
total of 21 full-time staff members supporting the outreach office at each
operating location and a budget of $6.5 million.




                                   23
Appendix D. Best Management Practices
   The evaluation team visited various DoD test and training ranges, as well as
   non-DoD and public sector organizations, where we observed model programs
   and best management practices employed in community involvement programs.
   This appendix summarizes community involvement best management practices.
   The following table identifies community involvement best management
   practices and their respective organizational entity.

                              Best Management Practices
        Community Best Management                Responsible Organization
                   Practices
    Florida Defense Alliance             Eglin Air Force Base
    Encroachment Committee               Eglin Air Force Base
    Continuous Interaction With          Eglin Air Force Base
    Stakeholders
    Citizens Advisory Technical Team     Assembled Chemical Weapons
                                         Assessment
    Overarching Strategy                 Program Manager for Chemical
                                         Demilitarization
    Handbook for Managers: Community Brookhaven National Laboratory
    Involvement and Laboratory Decision
    Making
    Envoy Program                        Brookhaven National Laboratory
    Chief Executive Officer Checklist    American Chemistry Council
    Public Participation Tool Box        The International Association for Public
                                         Participation
    Installation Leader’s Guide to       U.S. Army Environmental Center
    Environmental Public Involvement
    Sound Level Management Program       Aberdeen Test Center

   Florida Defense Alliance. Eglin AFB is a member of the Florida Defense
   Alliance, which is an organization that was created in 1998 to ensure that
   military bases and military host communities in the state of Florida are
   improving the efficiency of base operations. The mission of the Florida Defense
   Alliance is to promote base efficiency and to further military missions in
   Florida. The Florida Defense Alliance serves as an overall advisory body for
   Florida’s defense related activities. It is comprised of designated representatives
   from each local base, local military base commanders, and state agency liaisons,
   as well as a number of individuals and groups with statewide perspectives and
   national experience. The mission, goals, and objectives of the Florida Defense
   Alliance point the way for the state of Florida to become a proactive participant
   in future defense realignment discussions and decisions.



                                       24
Encroachment Committee. Eglin AFB has established an Encroachment
Committee, which has documented objectives, decision processes, and
performance indicators to measure success. The Encroachment Committee is
comprised of members from all functional areas of the range, including range
safety, long-range corporate plans, civil engineering, comptroller,
environmental management, frequency management, test plans and operations,
legal, and public affairs. The Encroachment Committee reviews all
encroachment requests, and invites all those submitting requests to attend
meetings to personally explain their concerns. During the review process, open
dialogue is established, and decisions are made with mission impact being the
first consideration. This dialogue has helped Eglin to establish a solid rapport
with the community.

Continuous Interactions With Stakeholders. Eglin AFB holds discussions
with stakeholders on a regular basis. The discussions are products of a
proactive vision to take proactive measures before encroachment issues become
a problem. Additionally, the range commander has demonstrated his
commitment to community involvement by annually interfacing with civic
leaders, general officers, and retired senior executives and presenting briefings,
providing information on current activities conducted on the range, and
receiving concerns. Civic leaders are invited to an annual meeting to interface
with senior management. These sessions provide an opportunity for community
leaders to give their insight on different encroachment issues and to discuss
issues that they believe will make an impact on the community.

Eglin AFB has also formed partnerships with the local mayors and the Florida
Governor. These partnerships have matured to the point where Eglin AFB has
become a member of key planning organizations within the state of Florida.
A quarterly Mayors’ Breakfast is conducted with mayors of local communities
and upper management of Eglin AFB, including the range commander. Range
commanders also meet biannually with the Florida Governor to ensure that any
issues that need to be addressed at that level are discussed. This enables
commanders to personally communicate concerns of a nature where the state
might provide assistance. This personal interface has opened up the lines of
communication with the Governor, the Governor’s staff, and state agencies.

Citizens Advisory Technical Team. Congress established the Assembled
Chemical Weapons Assessment (ACWA) program in 1997 in accordance with
Public Law 104-208. The mission of ACWA is to demonstrate not less than
two alternative technologies to the baseline incineration process for the
demilitarization of assembled chemical weapons. ACWA created the Citizens
Advisory Technical Team, which was comprised of four dialogue participants
that represent a diversity of perspectives and a technical consulting firm. Team
members signed confidentiality papers, allowing them to attend DoD
procurement meetings. By participating in meetings normally open only to DoD
personnel, the Citizens Advisory Technical Team provided dialogue members
with assurances that the criteria are being used appropriately to select and
evaluate technologies. According to the 1999 ACWA application for the
Innovations in Government Award, never before have citizens been so fully
involved in a DoD procurement process.


                                    25
Overarching Strategy. The foundation of the community involvement program
for PMCD is an overarching public involvement strategy that states the mission,
vision, senior management commitment, and roles and responsibilities for the
POIO within PMCD. This overarching strategy provides management with the
necessary oversight, guidance, training, expertise, and tools to support public
information and involvement activities at each site and respective local
community.

The PMCD overarching strategy includes three tiers of guidance. The first tier
represents the overarching strategy for PMCD, which outlines the mission and
vision for public outreach. The second tier is formed of the mission area
strategies, which incorporate the mission and vision of the national program, but
provide a more tailored approach for the particular mission area to ensure that
the mission area and involvement efforts meet specific needs of the
stakeholders. The third tier consists of site implementation plans for each
operating location.

The overarching strategy also contains performance metrics and program
evaluation. Surveys, site data collection, issues management, and lessons
learned are all methods employed to measure accomplishments. Information is
routinely exchanged between each site outreach office and headquarters, which
helps the sites and headquarters office to track public outreach and involvement
activities, as well as public comments and questions. This information helps
POIO and the site teams to monitor and evaluate their outreach and involvement
efforts.

Handbook for Managers. BNL developed a handbook for managers for
conducting community involvement activities. The handbook provides specific
instructions on how to implement the community involvement process that is
described in the BNL Community Involvement Plan. The handbook includes a
step-by-step checklist for identifying issues that may require community
involvement. Managers are required to complete the checklist for all issues and
decisions that have any potential for interest or concern in the community.

Issues that may require community involvement can also be brought to BNL via
several community sources, such as the Community Advisory Council, local
community groups, and community members. These groups or individuals can
bring issues of interest to the attention of BNL through direct contacts with BNL
managers and staff; through the Community, Education, Government, and
Public Affairs Office; or through government representatives and agencies.
Envoy Program. The Envoy Program is a volunteer program established by
the BNL Community, Education, Government, and Public Affairs Office. BNL
personnel volunteer to be an envoy or spokesperson for BNL at organizations
that they belong to within the community, such as civic, educational, or
recreational organizations. Community Relations personnel train the envoys on
how to listen and communicate with the public, and meet with the envoys
monthly to provide presentations on BNL programs and current issues. These
meetings provide an avenue for BNL envoys to provide feedback from the civic
organizations regarding issues that concern the community members.



                                   26
Chief Executive Officer Checklist. The Responsible Care® Program contains
the American Chemistry Council policy, guidance, mission, vision, and reasons
for implementation, oversight, coordination, roles, and responsibilities. The
Responsible Care® Program instituted a checklist for Chief Executive Officers
of member companies. This checklist helps to ensure that member companies
are instituting the Responsible Care® Program as outlined in the guiding
principles.

Public Participation Toolbox. The International Association for Public
Participation is an association that seeks to promote and improve the practice of
public participation in relationships among individuals, governments,
institutions, and other entities that affect the public interest in nations throughout
the world. The International Association for Public Participation developed a
toolbox of information and techniques to assist in the public participation
process. It includes different techniques to use when involving the public. The
toolbox is separated into different types of stakeholders and situations that may
be encountered by organizations relative to the goal for involving communities.
Types of community involvement range from passive public information
techniques to solving problems with large groups. The toolbox suggests
techniques for successful community involvement for different scenarios.

Installation Leader’s Guide to Environmental Public Involvement. The
Army Environmental Center at Aberdeen Proving Ground is drafting the
Installation Leader’s Guide to Environmental Public Involvement to help Army
range commanders and their staff meet community involvement challenges by
providing a framework for a community involvement plan. This guide sets
forth a systematic approach that incorporates an assessment of the public’s needs
and perceptions at critical points in the development and execution of the
community involvement plan. The community involvement plan includes a
detailed set of goals and objectives, specific strategies, a variety of tactics or
tools, and evaluation process. The leader’s guide outlines methods for
conducting community involvement for a range of environmental issues. The
leader’s guide provides a step-by-step process to establish, execute, and
maintain a community involvement program at any DoD installation.

Sound Level Management Program. The Aberdeen Test Center on Aberdeen
Proving Ground developed a Sound Level Management Program as a result of
noise complaints from the surrounding communities. The mission of this
program is to support test and training programs, manage generated sound levels
at receptor locations, and reduce noise complaints with minimal impact to the
community and the mission. The program’s objective is to responsibly manage
the noise program and minimize the annoyance of the blast noise and vibration
levels impacting the surrounding communities. The Sound Level Management
Program provides community involvement efforts, including calls and visits,
quarterly reports, public meetings, and a noise and shock symposium.
Additional efforts include:

   •   utilizing a call database to inform key citizens of scheduled testing;

   •   administrative protocols, including coordination with legal counsel,
       public affairs office, tenants, and the public, to inform them of scheduled
       testing and to gain feedback on the Sound Level Management Program;
                                     27
   •   publication of a newspaper for stakeholders to keep them up to date on
       news and issues at Aberdeen Test Center, located within Aberdeen
       Proving Ground;

   •   routine public meetings to promote awareness and information
       exchange; and

   •   a toll-free number for noise concerns staffed 24 hours every day.

The Sound Level Management Program also incorporates the use of a daily
calibration shot that is monitored at the perimeter of the range and at certain
locations within the community. Information from the sound monitors is
entered into a Noise Assessment Prediction System, which aids in the prediction
of how far and where noise from a testing activity will carry. These predictions
aid in the focus of community involvement and outreach efforts for areas where
noise in the community from testing may be an issue.




                                   28
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Operational Test and Evaluation

Department of the Army
Assistant Secretary of the Army (Installations and Environment)
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Installations and Environment)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Installations, Environment, and Logistics)
Auditor General, Department of the Air Force


Non-Defense Federal Organization
Office of Management and Budget




                                           29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         30
Deputy Under Secretary of Defense (Readiness), Deputy Under
Secretary of Defense (Installations and Environment), and the Director
of Operational Test and Evaluation Comments




                                   31
32
33
34
     Final Report
      Reference




     Revised




35
Final Report
 Reference




Revised




Revised




               36
     Final Report
      Reference




     Revised




     Revised




37
Final Report
 Reference




Revised




Deleted




               38
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Garold E. Stephenson
William C. Gallagher
Michael R. Herbaugh
LTC Rodger Rudolph
Daniel S. Battitori
Melissa M. McBride
Steven Bennett
Tabitha J. Lemley
